Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  Comparing Drug Reimbursement:
          Medicare and
   Department of Veterans Affairs




                   JUNE GIBBS BROWN
                    Inspector General

                     NOVEMBER 1998
                      OEI-03-97-00293
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Philadelphia Regional Office prepared this report under the direction of Robert A. Vito,
Regional Inspector General, and Linda M. Ragone, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                               HEADQUARTERS

David Tawes, Lead Analyst                            Lisa A. Foley, Program Specialist
Nancy J. Molyneaux




 To obtain copies of this report, please call the Philadelphia Regional Office at (800) 531-9562.
         Reports are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

To compare Medicare allowances for prescription drugs with drug acquisition prices currently
available to the Department of Veterans Affairs.

BACKGROUND

Medicare allowances for prescription drugs totaled almost $2.3 billion in 1996. In 1997,
allowances rose to approximately $2.75 billion.

Medicare does not pay for over-the-counter or most outpatient prescription drugs. However,
under specific circumstances, Medicare Part B covers drugs used with durable medical equipment
or infusion devices. Medicare also covers certain drugs used in association with organ
transplantation, dialysis, chemotherapy, and pain management for cancer treatment. Additionally,
the program covers certain vaccines, such as those for influenza and hepatitis B.

Physicians and suppliers usually bill Medicare directly for the prescription drugs they provide to
beneficiaries. Medicare Part B reimburses covered drugs at 95 percent of the drugs’ average
wholesale prices (AWPs). The beneficiary is responsible for a 20 percent coinsurance payment.

Unlike Medicare, the Department of Veterans Affairs (VA) purchases drugs for its healthcare
system directly from manufacturers or wholesalers. There are several purchase options available
to the VA, including the Federal Supply Schedule, Blanket Purchase Agreements, and VA
national contracts.

We focused our inspection on 34 drug codes, each with over $10 million in Medicare allowed
charges for 1996. We then compared the amount Medicare reimbursed for these drugs to the
VA’s Federal Supply Schedule acquisition costs during the first quarter of 1998.

FINDINGS

Medicare and its beneficiaries could save $1 billion in 1998 if the allowed amounts for 34
drugs were equal to prices obtained by the VA.

After comparing the median Medicare allowance with the corresponding median VA acquisition
cost for 34 drugs, we estimated that Medicare and its beneficiaries could save $1.03 billion in
1998 if the Medicare allowed amounts for 34 drugs were equal to prices obtained by the VA
under the Federal Supply Schedule.

This savings represents almost half of the $2.07 billion in reimbursement that Medicare and its
beneficiaries paid for these 34 drugs in 1997. The estimated savings for individual drugs ranged
from a high of $276 million for J9217 (leuprolide acetate) to a low of $16,460 for K0523
(concentrated metaproteranol sulfate).

                                          )))))))))))
                                               i
Medicare allowed between 15 and 1600 percent more than the Department of Veterans Affairs
paid for the 34 drugs reviewed.

The Medicare allowance was greater than the VA acquisition cost for every drug reviewed. For 3
of the 34 drugs, Medicare allowed more than 16 times the VA acquisition cost. Eleven drugs had
Medicare allowances that were between two and six times higher than the VA cost. For only two
drugs was the difference between Medicare reimbursement and VA cost less than 25 percent.

RECOMMENDATIONS

The Department of Veterans Affairs purchases drugs for its healthcare system directly from
manufacturers or wholesalers. Conversely, Medicare reimburses doctors and suppliers for drugs
which they administer or supply to beneficiaries. We recognize that the Health Care Financing
Administration (HCFA) and the VA operate under different statutory constraints. Nevertheless,
the fact remains that another Federal agency can get prescription drugs for a drastically lower
price than Medicare.

Previous reports of the Office of Inspector General found that actual wholesale prices available to
physicians and suppliers are often significantly lower than the Medicare allowed amounts. This
report provides additional evidence that the published AWPs used in determining the Medicare
allowed amounts for certain prescription drugs can be many times greater than the actual
acquisition costs available in the marketplace.

We believe our current findings provide further support for recommendations made in earlier
reports. We previously recommended that HCFA reexamine its Medicare drug reimbursement
methodologies with the goal of reducing payments as appropriate. The HCFA concurred with
this recommendation. We outlined a number of options for implementing this recommendation,
including: (1) greater discounting of published average wholesale prices, (2) basing payment on
acquisition costs, (3) establishing manufacturers’ rebates similar to those used in the Medicaid
program, and (4) using competitive bidding.

We continue to support the need for a comprehensive statutory reform of Medicare's prescription
drug reimbursement methodology. A number of proposals addressing reform have been offered
by both the Administration and members of Congress. However, until legislation can be enacted
providing for such reform, we recommend that HCFA utilize the new inherent reasonableness or
competitive bidding authorities provided in the Balanced Budget Act of 1997 to reduce
Medicare’s unreasonably high payments for certain drugs.

AGENCY COMMENTS

The HCFA concurred with our recommendations, stating that it appreciates the OIG’s continuous
efforts to assist it in obtaining the lowest prices for covered drugs. The HCFA noted that it has
made several efforts to reduce excessive reimbursement rates, including using an inherent
reasonableness adjustment for albuterol sulfate. The OIG supports these efforts and we believe
HCFA should continue to use its inherent reasonableness authority to lower inappropriate
payments for other drugs with excessive reimbursement rates.
                                         )))))))))))
                                              ii
                              TABLE OF CONTENTS


                                                                                                                                PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


  Potential savings of $1 billion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


 Medicare allowances are greater than VA cost . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


APPENDICES


A: Description of 34 HCPCS Codes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


B: Estimated 1998 Savings by HCPCS Code . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1


C: Health Care Financing Administration Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . C-1

                             INTRODUCTION

PURPOSE

To compare Medicare allowances for prescription drugs with drug acquisition prices currently
available to the Department of Veterans Affairs.

BACKGROUND

Medicare allowances for prescription drugs totaled almost $2.3 billion in 1996. In 1997,
allowances rose to approximately $2.75 billion. Medicare allowances include both the Medicare
payment and the 20 percent copayment made by the beneficiary.

Medicare Coverage and Payment of Prescription Drugs

Medicare does not pay for over-the-counter or most outpatient prescription drugs. However,
under specific circumstances, Medicare Part B covers drugs used with durable medical equipment
(DME) or infusion devices. Medicare also covers certain drugs used in association with organ
transplantation, dialysis, chemotherapy, and pain management for cancer treatment. Additionally,
the program covers certain vaccines, such as those for influenza and hepatitis B.

Physicians and suppliers usually bill Medicare directly for the prescription drugs they provide to
beneficiaries. Medicare Part B reimburses covered drugs at 95 percent of the drugs’ average
wholesale prices (AWPs). The beneficiary is responsible for a 20 percent coinsurance payment.

The Health Care Financing Administration (HCFA) contracts with local carriers and four DME
regional carriers (DMERCs) to process Part B claims and establish the Medicare allowed amounts
for covered drugs. These carriers determine the allowed amount for a drug based on the AWPs
as reported in the Red Book or similar pricing publications used by the pharmaceutical industry. If
a drug has both brand and generic sources available, reimbursement is based on 95 percent of the
median AWP for generic sources. However, if a brand name product’s AWP is lower than the
median generic price, a new median including the brand must be calculated. Beginning in 1999,
Medicare will calculate the AWP for multiple-source drugs at the lower of the median generic
AWP or the lowest brand-name AWP.

The HCFA and its carriers identify drug products using codes in HCFA’s Common Procedure
Coding System (HCPCS). The HCPCS codes define the type of drug, and in most cases, a
dosage amount. The codes do not identify the specific drug product billed.

Department of Veterans Affairs Payments for Prescription Drugs

Unlike Medicare, the Department of Veterans Affairs (VA) purchases drugs for its healthcare
system directly from manufacturers or wholesalers. The VA uses National Drug Codes (NDCs)
rather than HCPCS codes to identify drugs products. Each drug manufactured or distributed in

                                          )))))))))))
                                               1
the United States has a unique NDC. The NDCs identify the manufacturer of the drug, the
product dosage form, and the package size.

There are several purchase options available to the VA, including the Federal Supply Schedule,
Blanket Purchase Agreements, and VA national contracts. The Federal Supply Schedule provides
agencies like the VA with a simple process for purchasing commonly-used products in various
quantities while still obtaining the discounts associated with volume buying. Using competitive
procedures, contracts are awarded to companies to provide services and supplies over a given
period of time. Although the General Services Administration awards most Federal Supply
Schedule contracts, the VA awards contracts for certain medical items. Agencies are not required
to use the Federal Supply Schedule, however, and are able to negotiate prices lower than the
Federal Supply Schedule price.

New Authorities Provided by the Balanced Budget Act

A provision within the Balanced Budget Act of 1997 allows Medicare to diverge from a
statutorily defined payment method if the application results in a payment amount that is not
inherently reasonable. Additionally, the Act provides HCFA with the authority to conduct
competitive bidding demonstrations. The legislation authorizes up to five of these demonstrations
for health care items and services covered by the Medicare fee-for-service program. All
demonstrations must be completed by December 31, 2002.

Related Work by the Office of Inspector General

This report is one of several Office of Inspector General (OIG) reports concerning Medicare
payments for prescription drugs. In 1997, we released Excessive Medicare Payments for
Prescription Drugs (OEI 03-97-00290), which found that Medicare allowances for 22 drugs
exceeded actual wholesale prices by $447 million in 1996. In 1996, we released a report entitled
Appropriateness of Medicare Prescription Drug Allowances (OEI-03-96-00420) which
compared Medicare drug reimbursement mechanisms with Medicaid mechanisms and found that
Medicare could achieve significant savings by adopting reimbursement strategies similar to those
used by Medicaid. The OIG has also released several reports focusing on the cost of inhalation
drugs covered by Medicare. Medicare Payments for Nebulizer Drugs (OEI-03-94-00390), A
Comparison of Albuterol Sulfate Prices (OEI-03-94-00392), and Suppliers’ Acquisition Costs for
Albuterol Sulfate (OEI-03-94-00393) all found Medicare allowances for inhalation drugs to be
excessive.

METHODOLOGY

We focused our inspection on the HCPCS codes with over $10 million in Medicare allowed
charges for 1996. We then compared the amount Medicare reimburses for these drugs to the
VA’s acquisition costs during the first quarter of 1998.

We collected data from four sources. We accessed the HCFA National Claims History (NCH)
File to get information concerning Medicare allowances and utilization for prescription drugs in
1996 and 1997. We gathered reimbursement rates for specific Medicare drug codes by contacting
                                        )))))))))))
                                             2
several carriers. We obtained drug acquisition costs from the VA. We used the CD-ROM
version of the Red Book to help us match HCPCS codes to their equivalent NDCs.




                                      )))))))))))
                                           3

Medicare Allowances for Prescription Drugs

To determine total Medicare payments for prescription drugs, we compiled a list of HCPCS codes
representing all drugs covered by Medicare in 1996. We selected 1996 because it was the most
recent year with complete data in the NCH file. We then determined the Medicare allowance and
utilization for each of the more than 400 HCPCS codes using HCFA’s Part B Extract Summary
System (BESS). Next, we aggregated the individual allowances and utilization to determine the
total allowance and utilization for all prescription drugs covered by Medicare in 1996.

We arrayed the HCPCS codes by their allowances and found that 40 codes each had over $10
million in allowances for 1996. These 40 codes represented just over $2 billion in allowances for
1996, and comprised 88 percent of the total Medicare allowance for all prescription drugs.

We removed several HCPCS codes from our review. Codes J7699, J7999, and J3490 were
removed because they are defined as either “not otherwise classified” or “unclassified” drugs. We
also chose not to use code A4646, an iodine product. Two Factor VIII codes (J7190 and J7192)
were removed because we knew from previous studies that they were difficult to match to NDCs.
Finally, code J9010 (Doxorubicin, 50 mg) is no longer reimbursed by HCFA, and was therefore
removed from review.

Several other HCFA coding changes in 1997 and 1998 affected the drugs in our review. Code
J1625 was deleted, and replaced with J1626. Inhalation codes J7610 and J7645 were changed to
K0503 and K0518 respectively. Finally, HCFA deleted inhalation codes J7620 and J7670 and
replaced them with two codes each, one representing a concentrated dose and the other a unit
dose form of the drug. Code J7620 was changed to codes K0504 and K0505, while code J7670
was changed to K0523 and K0524. After accounting for these changes, 35 HCPCS codes
remained in our review.

Carrier Reimbursement for Prescription Drugs

Because Medicare does not have uniform national allowed amounts for prescription drugs, we
had to collect reimbursement information from various carriers. We obtained first quarter 1998
Medicare allowed amounts for the 35 HCPCS codes from five large Medicare carriers: Xact
Medicare Services, United Healthcare Insurance Company, Blue Cross and Blue Shield of Texas,
Blue Cross and Blue Shield of Florida, and Blue Cross and Blue Shield of South Carolina. We
also received Medicare allowed amounts from the four DMERCs. To determine a single
Medicare allowed amount, we calculated median prices for each HCPCS code based on this
information.




                                         )))))))))))
                                              4
Matching HCPCS Codes to NDCs

Since the VA pays for drugs based on NDCs, we used the 1998 Red Book CD-ROM update to
determine the specific NDCs that would match the HCPCS code definition for each of the 35
drugs. Whenever possible, we selected NDCs that met the exact dosage delineated in the HCPCS
code description. When this was not possible, we chose NDCs with doses for which a conversion
factor to the HCPCS definition could be readily determined.

VA Acquisition Costs for Prescription Drugs

To determine the VA’s first quarter 1998 acquisition costs for the selected NDCs, we obtained a
file from the VA containing contract acquisition costs. We selected the Federal Supply Schedule
price for comparison purposes. However, some drugs had lower prices available to the VA based
on other contractual methods.

Eleven drugs had only one NDC match in the VA file, while six drugs had more than five
matches. One HCPCS code (90724) and its corresponding NDCs did not have any matches in the
VA file. This HCPCS code was therefore removed from the study, leaving 34 codes in our
review. A list of the final 34 HCPCS codes and their corresponding descriptions is presented in
Appendix A.

These 34 HCPCS codes represented 17 single-source, 11 multiple-source, and 6 multiple-brand
drugs. A single-source drug has only one brand of drug available. A multiple-source drug has
both brand and generic sources available. A multiple-brand drug has more than one brand but no
generic versions available. Of the 11 drugs with a single NDC match in the VA file, 8 were
single-source drugs.

Comparing Medicare Allowance Amounts to VA Acquisition Costs

Using the Red Book and the HCPCS code definitions, we compared product descriptions for the
34 drugs reviewed. For some NDCs, the corresponding HCPCS codes had an equivalent dosage,
and therefore the VA cost could be easily compared to the Medicare allowed amount. If the two
codes were not equal, we determined a conversion factor to match the NDC dosage and package
size to the HCPCS dosage. We then took the Federal Supply Schedule contract price for the
NDC and divided it by the conversion factor to determine the pricing of its HCPCS code
equivalent.

To compare VA costs to Medicare allowed amounts, we needed to determine a single VA price
for each drug. For the 11 drugs with a single NDC match in the VA file, we simply used the
Federal Supply Schedule contract price of that NDC. For the 23 drugs with multiple NDC
matches in the VA file, we took the median of the Federal Supply Schedule contract prices.

Calculating Potential Medicare Savings

To calculate potential Medicare savings, we used the utilization numbers contained in the 1997
BESS file. Although we used 1998 Medicare allowed amounts, we chose to use 1997 utilization
                                       )))))))))))
                                            5
data for our calculations since the 1998 utilization data was incomplete at the time of our review.
Because two HCPCS codes underwent dosage changes between 1997 and 1998, we needed to
determine a conversion factor to estimate utilization for the new dosages. In 1998, code J1625
was changed to J1626, with the dosage changing from 1 milligram (mg) to 100 micrograms
(mcg). Therefore, we estimated that utilization would increase by a factor of 10 (1 mg = 1000
mcg). Also in 1998, the dosage of J1562 was changed from 500 milligrams to 5 grams (g).
Therefore, we estimated that overall utilization would decrease by a factor of 10 at the new
dosage (5000 mg = 5 g).

Finally, for each drug, we compared the median Medicare allowed amount to the median VA
acquisition cost for the first quarter of 1998. We multiplied the difference by the 1997 utilization
of each drug to calculate the potential savings to Medicare if the program reimbursed drugs at VA
cost rather than 95 percent of AWP.




                                         )))))))))))
                                              6
                                    FINDINGS

MEDICARE AND ITS BENEFICIARIES COULD SAVE $1 BILLION IN 1998 IF THE
ALLOWED AMOUNTS FOR 34 DRUGS WERE EQUAL TO PRICES OBTAINED BY
THE DEPARTMENT OF VETERANS AFFAIRS.

After comparing the median Medicare allowance with the corresponding median VA acquisition
cost for 34 drugs, we estimated that Medicare and its beneficiaries could save $1.03 billion in
1998 if the Medicare allowed amounts for 34 drugs were equal to prices obtained by the VA
under the Federal Supply Schedule. The estimated savings represents almost half of the $2.07
billion in reimbursement that Medicare and its beneficiaries paid for these 34 drugs in 1997.

The estimated savings for individual drugs ranged from a high of $276 million for J9217
(leuprolide acetate) to a low of $16,460 for K0523 (concentrated metaproterenol sulfate). Drugs
with estimated savings greater than $20 million are listed below. A complete list of the 34 drugs,
Medicare and VA median costs, and potential savings is provided in Appendix B.

       DRUGS WITH 1998 ESTIMATED SAVINGS OVER $20 MILLION

HCPCS                                    VA    HCFA            NUMBER OF              ESTIMATED
CODE       GENERIC DRUG NAME MEDIAN MEDIAN DIFFERENCE SERVICES                          SAVINGS
 J9217   Leuprolide acetate            $299.38 $513.60 $214.22    1,286,664          $275,629,162.08
K0505    Albuterol sulfate (dose form)   $0.12   $0.47   $0.35 343,627,175           $120,269,511.25
 J9202   Goserelin acetate             $206.29 $389.98 $183.69      329,988           $60,615,495.72
K0518    Ipratropium bromide             $1.31   $3.34   $2.03   29,505,931           $59,897,039.93
 J9265   Paclitaxel                    $109.36 $173.50  $64.14      895,067           $57,409,597.38
Q0136    Epoetin alpha                   $6.74 $12.00    $5.26   10,466,953           $55,056,172.78
 J0640   Leucovorin calcium              $1.18 $20.45   $19.27    2,833,686           $54,605,129.22
 J9045   Carboplatin                    $39.50 $84.16   $44.66      982,275           $43,868,401.50
 J1626   Granisetron hcl                 $8.42 $16.85    $8.43    4,105,560           $34,609,870.80
 J1562   Immune globulin (5 g)         $110.83 $439.38 $328.55       92,994           $30,553,178.70
 J9182   Etoposide                       $7.84 $132.25 $124.41      181,322           $22,558,270.02
 J9000   Doxorubicin                     $7.46 $43.23   $35.77      629,236           $22,507,771.72
 J1561   Immune globulin (500 mg)       $27.71 $48.65   $20.94    1,039,526           $21,767,674.44
 J2430   Pamidronate disodium          $104.39 $196.90  $92.51      229,935           $21,271,286.85



MEDICARE ALLOWED BETWEEN 15 AND 1600 PERCENT MORE THAN THE
DEPARTMENT OF VETERANS AFFAIRS PAID FOR THE 34 DRUGS REVIEWED.

During the first quarter of 1998, Medicare allowed amounts were greater than the VA acquisition
cost for every drug in our review. However, there was substantial variation in the difference
between Medicare reimbursement and VA cost among the 34 drugs.


                                         )))))))))))
                                              7
Fourteen of the drugs in our study (41 percent) had Medicare allowances that were more than
double the VA cost. For 11 of these drugs, Medicare allowed between two and six times the VA
acquisition cost. For three drugs in our review (J0640, J9181, J9182), Medicare allowed more
than 16 times the VA acquisition cost. The chart below illustrates these drugs and their
comparative cost to Medicare. Appendix B lists the difference between Medicare reimbursement
and VA cost for all 34 drugs.


                                                  MEDICARE ALLOWS MORE THAN DOUBLE THE VA COST
                                                                  FOR 14 DRUGS
                                          1800%
                                          1700%                                                                              1633%
  PERCENTAGE OVER VA ACQUISITION COST 1




                                                                                                               1573% 1587%
                                          1600%
                                          1500%
                                          1400%
                                          1300%
                                          1200%
                                          1100%
                                          1000%
                                           900%
                                           800%
                                          700%
                                          600%
                                                                                                            479%
                                          500%                                                       438%
                                          400%                                           292% 296%
                                          300%                                     192%
                                          200% 100% 102% 113% 117% 126% 155%
                                          100%
                                            0%
                                               J1626 J0696 J9045 K0504 90732 K0518 J1245 K0505 J1562 K0503 J9000 J9181 J9182 J0640
                                                                                   HCPCS CODE



The remaining 20 drugs in our review also had Medicare reimbursements that were greater than
VA acquisition cost. Eighteen of the 20 drugs had Medicare reimbursements between 44 and 93
percent higher than VA acquisition cost. For only two drugs was the difference between
Medicare reimbursement and VA cost less than 25 percent.




                                                                             )))))))))))
                                                                                  8
                     RECOMMENDATIONS

The Department of Veterans Affairs purchases drugs for its healthcare system directly from
manufacturers or wholesalers. Conversely, Medicare reimburses doctors and suppliers for drugs
which they administer or supply to beneficiaries. We recognize that HCFA and the VA operate
under different statutory constraints. Nevertheless, the fact remains that another Federal agency
can get prescription drugs for a drastically lower price than Medicare.

Previous reports of the Office of Inspector General found that actual wholesale prices available to
physicians and suppliers are often significantly lower than the Medicare allowed amounts. This
report provides additional evidence that the published AWPs used in determining the Medicare
allowed amounts for certain prescription drugs can be many times greater than the actual
acquisition costs available in the marketplace.

Our current findings provide further support for recommendations made in earlier reports. We
previously recommended, and HCFA concurred, that HCFA reexamine its Medicare drug
reimbursement methodologies with the goal of reducing payments as appropriate. We outlined a
number of options for implementing this recommendation, including: (1) greater discounting of
published average wholesale prices, (2) basing payment on acquisition costs, (3) establishing
manufacturers’ rebates similar to those used in the Medicaid program, and (4) using competitive
bidding.

We continue to support the need for a comprehensive statutory reform of Medicare's prescription
drug reimbursement methodology. A number of proposals addressing reform have been offered
by both the Administration and members of Congress. However, until legislation can be enacted
providing for such reform, we recommend that HCFA utilize the new inherent reasonableness or
competitive bidding authorities provided in the Balanced Budget Act of 1997 to reduce
Medicare’s unreasonably high payments for certain drugs.

AGENCY COMMENTS

The HCFA concurred with our recommendations, stating that it appreciates the OIG’s continuous
efforts to assist it in obtaining the lowest prices for covered drugs. The HCFA noted that it
proposed in the President’s fiscal year 1998 budget that drugs be reimbursed at the provider’s
actual acquisition cost. The Congress did not enact the recommendation, and therefore the
proposal was again submitted with the fiscal year 1999 budget.

The HCFA further stated that DMERCs have issued inherent reasonableness notices to suppliers
which proposed an 11 percent decrease in the reimbursement amount for albuterol sulfate. The
HCFA indicated that other drugs may be reviewed for inherent reasonableness adjustments in the
future. The full text of HCFA’s comments is provided in Appendix C.




                                         )))))))))))
                                              9
OIG RESPONSE

We fully support HCFA’s and the Administration’s continued efforts to reduce excessive
payments for covered drugs. Until comprehensive reforms are enacted, we believe HCFA should
continue to use its inherent reasonableness authority to lower inappropriate payments for other
drugs with excessive reimbursement rates.




                                        )))))))))))
                                             10
                                          APPENDIX A


                             DESCRIPTION OF 34 HCPCS CODES
  1996 1998
HCPCS HCPCS
CODE CODE                        1998 DESCRIPTION                                              CHANGES
 90732 90732 Immunization, active; Pneumococcal vaccine
 J0205 J0205 Injection, Alglucerase, per 10 units
 J0585 J0585 Botulinum toxin type A, per unit                           Changed 9/96 from per 100 units to per 1 unit
 J0640 J0640 Injection,Leucovorin calcium, per 50 mg
 J0696 J0696 Injection, Ceftriaxone sodium, per 250 mg
 J1245 J1245 Injection, Dipyridamole, per 10 mg
 J1440 J1440 Injection, Filgrastim (G-CSF), 300 mcg
 J1441 J1441 Injection, Filgrastim (G-CSF), 480 mcg
 J1561 J1561 Injection, Immune globulin, intravenous, 500 mg
 J1562 J1562 Injection, Immune globulin, intravenous, 5 g               Changed 1/98 from per 500mg to per 5g
                                                                        Changed 1/98 from per 1mg (J1625) to per 100mcg
J1625    J1626 Injection, Granisetron hydrochloride, per 100 mcg        (J1626)
J2405    J2405 Injection, Ondansetron HCl, per 1 mg
J2430    J2430 Injection, Pamidronate disodium, per 30 mg
                                                                        Changed 4/97 from 10%, per ml (J7610) to per gram
J7610    K0503 Acetylcysteine, unit dose form, per gram                 (K0503)
                                                                        Changed 4/97 from .083%, per ml (J7620) to per mg,
J7620    K0504 Albuterol sulfate, concentrated form, per mg             concentrated form (K0504)
                                                                        Changed 4/97 from .083%, per ml (J7620) to per mg, unit
J7620    K0505 Albuterol sulfate, unit dose form, per mg                dose form (K0505)
                                                                        Changed 4/97 from .02%, per ml (J7645) to per mg, unit
J7645    K0518 Ipratropium bromide, unit dose form, per mg              dose form (K0518)
                                                                        Changed 4/97 from .4%, per 2.5ml (J7670) to per 10mg,
J7670    K0523 Metaproterenol sulfate, concentrated form, per 10 mg     concentrated form (K0523)
                                                                        Changed 4/97 from .4%, per 2.5ml (J7670) to per 10mg,
J7670    K0524   Metaproterenol sulfate, unit dose form, per 10 mg      unit dose form (K0524)
J9000    J9000   Doxorubicin Hcl, 10 mg
J9031    J9031   BCG, live (intravesical), per installation
J9045    J9045   Injection, Carboplatin, 50 mg
J9062    J9062   Injection, Cisplatin, 50 mg
J9181    J9181   Injection, Etoposide, 10 mg
J9182    J9182   Injection, Etoposide, 100 mg
J9185    J9185   Injection, Fludarabine phosphate, 50 mg
J9202    J9202   Goserelin acetate implant, per 3.6 mg
J9214    J9214   Interferon alfa-2b, recombinant, 1 million units
J9217    J9217   Leuprolide acetate (for depot suspension), 7.5 mg
J9265    J9265   Injection, Paclitaxel, 30 mg
J9293    J9293   Injection, Mitoxantrone HCl, per 5 mg
J9390    J9390   Vinorelbine tartrate, per 10 mg
K0121    K0121   Cyclosporine, oral, 25 mg
Q0136    Q0136   Injection, Epoetin alpha, (non-ESRD), per 1000 units




                                                     )))))))))))
                                                         A - 1

                                                   APPENDIX B



HCPCS                                                  VA    HCFA             PERCENTAGE NUMBER OF                              ESTIMATED
CODE             GENERIC DRUG NAME                   MEDIAN MEDIAN DIFFERENCE DIFFERENCE SERVICES                                SAVINGS

                            ESTIMATED 1998 SAVINGS BY HCPCS CODE
90732    Pneumococcal vaccine                           $5.68    $12.84            $7.16              126%       1,752,024      $12,544,491.84
 J0205   Alglucerase                                   $28.26    $35.15            $6.89               24%         143,084         $985,848.76
 J0585   Botulinum                                      $2.41     $3.98            $1.57               65%       2,843,251        $4,463,904.07
 J0640   Leucovorin calcium                             $1.18    $20.45           $19.27             1633%       2,833,686      $54,605,129.22
 J0696   Ceftriaxone sodium                             $5.81    $11.73            $5.92              102%       1,121,918        $6,641,754.56
 J1245   Dipryidamole                                   $9.65    $28.21           $18.56              192%         518,207        $9,617,921.92
 J1440   Filgrastim (300 mcg)                         $106.69   $153.24           $46.55               44%         367,795      $17,120,857.25
 J1441   Filgrastim (480 mcg)                         $169.55   $244.06           $74.51               44%         196,969      $14,676,160.19
 J1561   Immune globulin (500 mg)                      $27.71    $48.65           $20.94               76%       1,039,526      $21,767,674.44
 J1562   Immune globulin (5 g)                        $110.83   $439.38          $328.55              296%          92,994      $30,553,178.70
 J1626   Granisetron hcl                                $8.42    $16.85            $8.43              100%       4,105,560      $34,609,870.80
 J2405   Ondansetron hcl                                $5.03     $5.80            $0.77               15%       8,730,024        $6,722,118.48
 J2430   Pamidronate disodium                         $104.39   $196.90           $92.51               89%         229,935      $21,271,286.85
 J9000   Doxorubicin*                                   $7.46    $43.23           $35.77              479%         629,236      $22,507,771.72
 J9031   BCG Live                                      $78.22   $150.91           $72.69               93%         115,438        $8,391,188.22
 J9045   Carboplatin                                   $39.50    $84.16           $44.66              113%         982,275      $43,868,401.50
 J9062   Cisplatin                                    $100.09   $182.01           $81.92               82%          61,788        $5,061,672.96
 J9181   Etoposide (10 mg)                              $0.79    $13.22           $12.43             1573%         879,440      $10,931,439.20
 J9182   Etopisde (100 mg)                              $7.84   $132.25          $124.41             1587%         181,322      $22,558,270.02
 J9185   Fludarbine phosphate                         $110.70   $186.68           $75.98               69%         102,444        $7,783,695.12
 J9202   Goserelin acetate                            $206.29   $389.98          $183.69               89%         329,988      $60,615,495.72
 J9214   Interferon, alfa-2b                            $6.97    $10.74            $3.77               54%       1,112,282        $4,193,303.14
 J9217   Leuprolide acetate                           $299.38   $513.60          $214.22               72%       1,286,664     $275,629,162.08
 J9265   Paclitaxel                                   $109.36   $173.50           $64.14               59%         895,067      $57,409,597.38
 J9293   Mitoxantrone HCl                             $101.56   $179.56           $78.00               77%         121,358        $9,465,924.00
 J9390   Vinorelbine tartrate                          $40.72    $61.47           $20.75               51%         350,891        $7,280,988.25
K0121    Cyclosporine                                    $.88     $1.41             $.53               60%      15,326,735        $8,123,169.55
K0503    Acetylcysteine**                               $1.25     $6.73            $5.48              438%       1,861,345      $10,200,170.60
K0504    Albuterol sulfate (concentrated)**             $0.06     $0.13            $0.07              117%      15,474,404        $1,083,208.28
K0505    Albuterol sulfate (dose form)**                $0.12     $0.47            $0.35              292%     343,627,175     $120,269,511.25
K0518    Ipratropium bromide**                          $1.31     $3.34            $2.03              155%      29,505,931      $59,897,039.93
K0523    Metaproterenol sulfate (concentrated)**        $0.18     $0.26            $0.08               44%         205,745           $16,459.60
K0524    Metaproterenol sulfate (dose form)**           $0.52     $0.83            $0.31               60%       7,427,068        $2,302,391.08
Q0136    Epoetin alpha                                  $6.74    $12.00            $5.26               78%      10,466,953      $55,056,172.78
TOTAL                                                                                                                         $1,028,225,229.46



* Though code J9010 was deleted as of 12/31/96, there was still some billing of it in 1997. Currently, code J9000 is used for all Doxorubicin
billing. The number of services listed does not reflect that all 1998 billing for J9010 will be subsumed under J9000. Therefore, potential savings
are underestimated.

** Coding changes for inhalation drugs went into effect on April 1, 1997. The number of services listed reflects 1997 utilization for the K-codes
only, and therefore does not represent services billed under previous codes from January 1997 through March 1997. Potential savings are
therefore underestimated for these 6 codes.




                                                             )))))))))))
                                                                 B-1
              APPENDIX C





HEALTH CARE FINANCING ADMINISTRATION COMMENTS





                  )))))))))))
                      C - 1

)))))))))))
 C - 2

)))))))))))
    C - 3

